HHS/OIG, Audit -"Resolution of Audit Findings on States' Beneficiary Eligibility
Determinations for Medicaid and the State Children's Health Insurance Program,"(A-07-06-03073)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Resolution of Audit Findings on States' Beneficiary Eligibility Determinations
for Medicaid and the State Children's Health Insurance Program," (A-07-06-03073)
May 2, 2006
Complete
Text of Report is available in PDF format (967 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine, as of November 1, 2005, whether CMS had resolved
Office of Management and Budget (OMB) Circular A-133 audit findings for fiscal years (FYs)
2002 through 2004 on States Medicaid and State Childrens Health Insurance Program (SCHIP)
beneficiary eligibility determinations.  CMS had not resolved all Circular A-133 audit
findings on States Medicaid and SCHIP beneficiary eligibility determinations.  As of
November 1, 2005, CMS had not resolved eligibility findings in 11 of the 22 FY 2002 audit
reports submitted for resolution or in 25 of the 28 FY 2003 audit reports.  Furthermore,
CMS had not resolved the eligibility findings in the 25 FY 2004 audit reports.
The Medicaid and SCHIP eligibility findings were so significant, i.e., material, that they
caused some auditors to issue Circular A-133 reports with qualified opinions for six States
for both FYs 2002 and 2003 and for seven States for FY 2004.  In addition, auditors
disclaimed their opinions on Medicaid eligibility for Georgias FYs 2003 and 2004 reports
and for Washingtons FY 2004 report.
We recommended that CMS (1) resolve the backlog of unresolved A-133 audit findings and (2)
resolve A-133 audit findings on Medicaid and SCHIP beneficiary eligibility determinations
within 6 months of receiving the audit reports.  CMS agreed with our recommendations
but stated that the overall tone of the findings. . . misrepresents the actions taken, the
degree of responsiveness, and the level of commitment by CMS in resolving A-133 audit findings.